OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BENIN’S
EFFORTS TO TREAT AND
PREVENT MALARIA
AUDIT REPORT NO. 7-680-13-001-P
NOVEMBER 9, 2012




DAKAR, SENEGAL 

Office of Inspector General


November 9, 2012

MEMORANDUM

TO:      	         USAID/Benin Mission Director, Kevin Armstrong

FROM: 	            Regional Inspector General/Dakar, Gerard Custer /s/

SUBJECT:	          Audit of USAID/Benin’s Efforts to Treat and Prevent Malaria
                   (Report No. 7-680-13-001-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The report includes seven recommendations to strengthen USAID/Benin’s implementation of
the President’s Malaria Initiative. Management decisions were reached on Recommendations
3, 4, and 7, and final action was taken on Recommendations 2, 5, and 6. No decision was
reached for Recommendation 1. Please provide us with a written response within 30 days on
actions planned or taken to implement Recommendation 1.

Please also provide the Office of Audit Performance and Compliance Division with the
necessary documentation to achieve final action on Recommendations 3, 4, and 7.
Recommendations 2, 5, and 6 are closed upon report issuance.

I want to express my sincere appreciation for the cooperation and courtesy extended to my
staff.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Implementer Did Not Follow Guidelines for Diagnosing Malaria ............................................. 4 


     Reported Results Were Not Verifiable .................................................................................... 5 


     Inventory Controls Were Weak ............................................................................................... 6 


     Project Encountered Implementation Problems ..................................................................... 9 


Other Matter............................................................................................................................... 12 


     Government Malaria Treatment Policy Was Not Effective .................................................... 12 


Evaluation of Management Comments................................................................................... 13 


Appendix I—Scope and Methodology .................................................................................... 15 


Appendix II—Management Comments ................................................................................... 17 


Appendix III—Mission FY 2011 Results ................................................................................. 22 




Abbreviations

The following abbreviations appear in this report:

ACTs            artemisinin-based combination therapies (drugs known as ACTs)
ADS             Automated Directives System
ARM3            Accelerating the Reduction of Malaria Morbidity and Mortality Project
BASICS          Basic Support for Institutionalizing Child Survival
CDC             Centers for Disease Control and Prevention
COR             contracting officer’s representative
FY              fiscal year
MCDI            Medical Care Development International
MSH             Management Sciences for Health
NMCP            National Malaria Control Program
PISAF           Integrated Family Health Program
PMI             President’s Malaria Initiative
URC             University Research Co., LLC.
WHO             World Health Organization
SUMMARY OF RESULTS 

Malaria kills 1,500 to 2,000 children every year in the West African country of Benin, and it is the
main cause of anemia in most children under 5. According to the World Bank, households in
Benin spent about 25 percent of their annual income on preventing and treating malaria.1 As a
result, two-thirds of USAID/Benin’s fiscal year (FY) 2011 funding for the health sector in Benin
was allocated toward the elimination of malaria as a public health concern.

To combat the disease, the U.S. President’s Malaria Initiative (PMI) began giving funds to Benin
in 2008. Led by USAID missions and implemented with the Centers for Disease Control and
Prevention (CDC), PMI aims to reduce the number of malaria-related deaths by 50 percent.
USAID/Benin’s projects seek to provide (1) bed nets to 90 percent of households with a child or
pregnant woman, (2) preventive treatment to at least 85 percent of pregnant women, and (3)
drugs to at least 85 percent of government health facilities so that they can treat uncomplicated
cases of malaria. Two-thirds of USAID/Benin’s FY 2011 funding was allocated toward
eliminating malaria as a public health concern; the mission’s PMI obligations during FY 2011
totaled $19.4 million, of which the mission expended $18.9 million.

USAID/Benin and other organizations worked with the country’s National Malaria Control
Program (NMCP) to focus on three major issues: prevention, diagnosis and treatment, and
building the program’s capacity. The audit reviewed three PMI awards, listed in Table 1, to
evaluate the mission’s efforts.

                                        Table 1. PMI Awards in Benin
                                                                                                 Agreement/
Implementing                                                                                     Task Order
                         Dates	                            Project/Program
   Partner                                                                                         Amount
                                                                                                  (million $)
                                   DELIVER procures bed nets, artemisinin-based
John Snow                          combination therapies (drugs known as ACTs),
                     2008 to 2014	                                                                   41.6
Inc.	                              sulfadoxine-pyrimethamine for pregnant women, rapid
                                   diagnostic tests, and laboratory reagents. It also delivers
                                   nets to health facilities.
                                      Basic Support for Institutionalizing Child Survival
Management                            (BASICS) supports implementing integrated community
                     July 2009 to
Sciences for                          case management for children under 5 for malaria,
                      July 2012                                                                       4.5
Health (MSH)                          diarrhea, and pneumonia. It also provides information on
                                      immunizations and nutrition through community
                                      organizations and health workers.
                                      Through Accelerating the Reduction of Malaria Morbidity
Medical Care
                     October 2011     and Mortality (ARM3), MCDI and partners MSH, Johns
Development
                          to          Hopkins University Center for Communications
International                                                                                        30.0
                     October 2016     Programs, and Africare seek to increase coverage and
(MCDI)
                                      use of malaria interventions in support of the Benin
                                      National Malaria Strategy.




1
    http://pmi.gov/countries/profiles/benin_profile.pdf.


                                                                                                            1
The objective of the audit was to determine whether USAID/Benin’s malaria program has
achieved its goals of preventing and treating malaria.

The audit determined that the mission has met its goals of preventing and treating malaria for
the following reasons. In FY 2011 the mission met its goals as defined in its performance plan
report by purchasing 17,000 malaria treatment kits that were used by public and private
hospitals and by more than 250 health workers. In support of comprehensive diagnostics,
USAID/Benin contributed 600,000 rapid diagnostic tests toward the 3 million total national need,
and 509,100 ACTs for uncomplicated malaria treatment to health facilities. (More information
on the mission’s 2011 results is in Appendix III.)

Additionally, results from Benin’s 2011-2012 Demographic Health Survey confirmed that USAID
and donor efforts in the fight against malaria are having a significant impact. The number of
households that own a bed net has increased from 25 to 80 percent in 5 years. The number of
children under 5 who reported having a fever dropped by more than two-thirds, from 29 to
9 percent, indicating that prevention activities are reducing the number of new infections among
children effectively.

Although some of the specific quantitative accomplishments of the activities could not be
verified because supporting documentation was not available, we concluded that their
accomplishments had a significant impact on preventing and treating malaria in Benin.
USAID/Benin’s PMI program procured and distributed significant quantities of bed nets and
malarial medications to the local population. Moreover, all testimonial evidence obtained during
the audit from mission officials, implementing partners, Benin health officials, and beneficiaries
supported our conclusion that USAID/Benin PMI activities had a significant impact.

While USAID/Benin’s efforts to treat and prevent malaria are commendable, the mission’s
recent loss of several members of the health team—including the deputy team lead,
commodities logistics specialist, and CDC’s resident PMI adviser—has hampered its ability to
manage the program. Although the mission is taking steps to address these vacancies and
expects to fill these positions in the near future, not having these staff members will continue to
have a negative impact on the program’s success. This was especially obvious in terms of
monitoring and oversight, and not having enough employees to carry out these duties has made
the situation worse.

The audit also found that:

	 MSH did not follow guidelines for diagnosing malaria (page 4). MSH’s community health
   workers did not use tests recommended by the World Health Organization (WHO) and the
   Government of Benin to confirm whether patients had the disease prior to treatment.

	 Results reported by MSH could not be verified because MSH and its subpartners did not
   maintain records (page 5).

	 Inventory controls for antimalarial drugs and bed nets were weak (page 6).

	 A project encountered implementation problems (page 9). USAID did not adequately
   manage the MCDI-led consortium’s award, and as a result, activities either never started or
   began late, and beneficiaries could experience a break in services.




                                                                                                 2
	 Health centers were struggling with the adverse effects of the government’s free drug policy
   (page 12). Because the government was not reimbursing the centers for the drugs, some
   were unable to replenish stock—and treat people in need.

To address the weaknesses noted, the report recommends that USAID/Benin:

1. 	In coordination with the Ministry of Health, implement a distribution plan for the limited
    supply of rapid diagnostic tests that requires that community-level case management
    programs are provided with sufficient amounts of the tests to meet their needs in diagnosing
    and treating malaria (page 5).

2. 	Implement a monitoring plan for its President’s Malaria Initiative program that includes
    frequent site visits and data quality reviews, which are documented (page 6).

3. 	In collaboration with the National Malaria Control Program, implement procedures to
    improve the monitoring of antimalarial drugs and nets (page 9).

4. 	 In collaboration with the National Malaria Control Program and other donors, identify ways
     or provide means for disposing of bed net bags safely and promptly from past, present, and
     future distributions, and document the results (page 9).

5. 	 Work with Medical Care Development International to revise its agreement and work plan,
     adjust its targets, adjust its budget, and incorporate follow-on projects into its scope of work
     to reflect the late start and the current circumstances (page 11).

6. 	 Work with Medical Care Development International and require that it collaborate with the
     National Malaria Control Program and partners from previous projects to confirm that there
     is no break in follow-on services and document their actions (page 11).

7. 	 Support an evaluation of the Government of Benin’s policy for the free treatment of malaria
     and make recommendations in writing to the Government to make these services
     sustainable (page 12).

Detailed findings appear in the following section, and the audit scope and methodology appear
in Appendix I. Management comments are in Appendix II, and our evaluation of management
comments is on page 13.




                                                                                                   3
AUDIT FINDINGS 

Implementer Did Not Follow
Guidelines for Diagnosing Malaria
The WHO’s 2010 guidelines for treating malaria recommend testing all patients suspected of
having the disease before treatment begins.2 This policy change was made in part to reduce
the spread of drug resistance and to help identify patients who do not have malaria so that
alternative diagnoses can be made and appropriate treatment provided. The updated
guidelines are geared toward improving the management of not only malaria, but also other
childhood illnesses. Benin adopted the guidelines in February 2011, and anyone suspected of
having malaria must now be tested before receiving treatment.

USAID/Benin’s BASICS program implemented by MSH did not follow these guidelines. All of its
1,048 community health workers were trained to treat simple cases of malaria, diarrhea, and
acute respiratory infections in children under 5. However, only 102 workers were taught how to
use diagnostic tests. Community health workers use a step-by-step approach developed by
program officials to diagnose patients through identifying symptoms of malaria, diarrhea, and
acute respiratory infections. The community health workers then provide medications to the
patients based on the symptoms. According to WHO, diagnosis based only on symptoms has
very low specificity and results in overtreatment.

In 2011 none of the 39,259 suspected cases of malaria treated by the program’s community
health workers were confirmed through diagnostic tests before the administration of antimalarial
medication. This is not surprising since the 102 workers who knew how to use the tests were
trained in January 2012—only 5 months before the project ended.

MSH officials said they were aware of the guidelines but did not follow them because the
program could not get enough tests for its community health workers to use. In FY 2011
USAID/Benin donated 600,000 tests to the Ministry of Health toward the 3 million total national
need, but the country still experienced a shortage. Of the 50,000 tests needed per year for the
BASICS program, the Beninese Government provided only 500, and MSH and mission officials
have been unsuccessful at convincing it to provide more. For these reasons, MSH officials said
it was pointless to conduct more training on how to use the diagnostic tests because the
workers would not get a chance to use those skills before the end of the program, and
resources and skills would have been wasted.

According to MSH officials, apart from the compliance problems the program faces by not
complying with the Government of Benin’s guidance for diagnosing suspected malaria patients
prior to treatment, program beneficiaries also face other undesirable effects like building
potential parasite resistance to antimalarial drugs. Additionally, not confirming malaria through
appropriate diagnosis means that some people will receive treatments they don’t need and that
the number of malaria cases could be overstated. Although the program ends in July 2012, a
similar program is scheduled to start through the mission’s ARM3 project, which is being
implemented by MCDI and other partners. Therefore, to avoid this problem in the future, we
make the following recommendation.
2
 WHO recommends diagnosing malaria by light microscopy or rapid diagnostic tests, which detect
parasite-specific antigens or enzymes. Some tests have the ability to differentiate species.


                                                                                                 4
      Recommendation 1. We recommend that USAID/Benin in coordination with the Ministry
      of Health implement a distribution plan for the limited supply of rapid diagnostic tests that
      requires that community-level case management programs are provided with sufficient
      amounts of the tests to meet their needs in diagnosing and treating malaria.

Reported Results Were Not Verifiable
Access to quality data is essential for missions to make informed decisions about development
activities. To help manage for improved results, USAID provides extensive guidance, including
Automated Directives System (ADS) 203.3.5.1, “Data Quality,” which states that performance
data should meet data quality standards for validity, integrity, precision, reliability, and
timeliness. Additionally, ADS 203.3.5.2 states that USAID missions, offices, and assistance
objective teams should be aware of the strengths and weaknesses of their data and the extent
to which the data’s integrity can be trusted to influence management decisions.

However, we were unable to verify any reported results for BASICS’ malaria-related activities
because neither MSH nor its five subpartners maintained records.3 We attempted to verify
FY 2011 results reported by MSH for the following indicators:

     Number of children treated by health workers for malaria
     Number of households visited by health workers and that received an awareness message
     Number of cases of fever treated in the project intervention health zones

For the first indicator, MSH and its subpartners reported treating 39,259 patients, but we were
unable to verify any of these results as detailed in Table 2.

        Table 2. Reported and Verified Results for Number of Children Treated by Health 

                                Workers in FY 2011 (Audited) 

                                                                 Verified    Verified     Verified
            Subpartner           Health Zone       Reported       With        With         With
                                                                 Mission     Partner     Subpartner
              GRADE                Bassila           4,017          0           0            0
              DEDRAS              Tchaourou          8,332          0           0            0
               CBBE               Banikoara          7,400          0           0           N/A*
                                   Kandi-
          HANDICAP-plus           Gogonou-           5,865
                                                                     0          0            N/A
                                  Segbana
                                  Djougou-
             COVADES               Ouake-            13,645
                                                                     0          0            N/A
                                  Capargo
                Total                                   39,259       0           0
       * Auditors did not visit subpartners CBBE, HANDICAP-plus, and COVADES, but MSH officials
       said results could not be verified for any of them because none of the subpartners kept records.

Subpartner officials informed us that verifying the reported results would be difficult to do
because the data sheets supporting the data were not readily available. The sheets were
maintained by the community health workers, who reported their monthly activities to their
respective health centers, which then reported the results to MSH’s subpartners. The

3
    The MSH-led BASICS program represents 6 percent of total PMI-funded activities audited.


                                                                                                          5
subpartners said they did not keep copies of the registers as proof of assistance to beneficiaries
because they were never advised to do so by MSH or USAID. Moreover, neither USAID nor
MSH officials verified the data from subpartners to confirm its reliability during the project.

According to MSH officials, records were not maintained because the program was not staffed
with a monitoring and evaluation officer who could confirm the reliability of data. An official
added that repeated requests for USAID/Benin to approve the position of a monitoring and
evaluation officer were denied, and as a result, they had no choice but to assign the task of
collecting, maintaining, and reporting data to a technical adviser who was not familiar with these
tasks. The technical adviser said she noticed several inconsistencies in the data reported by
the subpartners and asked the mission to do a data quality assessment, but USAID/Benin
officials turned her down. The mission’s contracting officer’s representative (COR) disagreed
and said resources would have been provided to address this problem if MSH officials had
asked for them.

Nonetheless, timely monitoring of the project’s reported data to USAID/Benin officials should
have been performed to reveal the weaknesses in data quality so that appropriate, timely
actions to address them could have been initiated.

Officials at the two subpartners visited said this problem was exacerbated by the fact that their
organizations were not familiar with USAID’s reporting requirements and did not know that they
were supposed to maintain the data sheets used by the community health workers as evidence
of service provided. One official said MSH turned down the subpartner’s requests for help in
managing the data, monitoring the project, and developing project evaluation skills.

Additionally, the mission provided the audit team with only one documented site visit report—for
a project that had been in place for 3 years. During this site visit, several key problems were
discussed by MSH, government and subpartner officials, and the project’s COR; however, there
was no evidence or documentation to suggest that they were followed up on and appropriately
addressed. Although the COR informed us that additional site visits were performed, we
determined them to be infrequent and undocumented.

ADS 203.3.3 states that performance monitoring reveals whether desired results are occurring
and whether assistance efforts are on track to meet their objectives. Periodic verification of
reported results helps confirm that consistent, reliable data are collected for reporting,
management decision-making, and resource allocation. Therefore, we make the following
recommendation.

   Recommendation 2. We recommend that USAID/Benin implement a monitoring plan for
   its President’s Malaria Initiative program that includes frequent site visits and data quality
   reviews, which are documented.

Inventory Controls Were Weak
ADS 596.3.1, “Establishing Internal Controls,” requires USAID managers and staff to implement
internal controls to safeguard assets against waste, loss, unauthorized use, or misappropriation.
The Government Accountability Office’s Standards for Internal Control in the Federal
Government echoes this and states that an agency must establish physical controls to secure
and safeguard vulnerable assets. The publication also states that transactions and significant
events should be recorded promptly and clearly documented, and that documentation should be



                                                                                                    6
available to support management in controlling operations and making decisions.

In addition, commodities—like the bags in which bed nets are packed—must be disposed of
properly. According to Benin’s NMCP, the bags should be collected and disposed of to avoid
environmental and health hazards.

USAID/Benin’s FY 2012 Malaria Operational Plan highlights the need for proper commodity
management by stating:

        PMI will continue to strengthen the pharmaceutical management of antimalarials;
        provide support to the overall improvement of the supply chain for essential
        medicines, with emphasis on the peripheral level, and provide support to the
        overall strengthening of the health system in Benin. PMI will work with other
        partners to improve transparency and governance of pharmaceutical
        management at the health zone depots.

The U.S. Government’s 2009-2014 Malaria Strategy also emphasizes the need to “improve
forecasting, procurement, quality control, storage, and distribution of medicines.”

However, the audit team noted a number of inventory problems:

Drug Tracking System. Some health centers do not report their inventory and consumption
levels as required when they ask for more drugs. Through a previous USAID project, NMCP
introduced a tool in 2010 for centers to use when they record this information. Using this tool
effectively would have addressed a finding in a previous audit report4 that health centers
requested more antimalarial drugs than they could justify using. The audit team recommended
that the mission work with NMCP to strengthen controls to verify inventories and consumption
levels before approving requests. However, due in part to a lack of monitoring and
enforcement, the tool has not been used as intended.

Officials of the Regional Medical Store said that when employees from the regional depots
come to get supplies, they are supposed to bring monthly reports about consumption levels
based on the health centers they supply. However, depot employees occasionally arrive
without the reports. Since some of them travel up to 8 hours to get to the store, employees
there said they fill the order because they did not feel they can send the person back to the
depot for the reports. As a result, inventory and consumption levels are not reviewed to
determine whether the request is reasonable.

Excessive Inventory of Bed Nets. In July 2011 USAID supported NMCP’s campaign to
distribute 4.5 million bed nets—enough to be sure that everyone in Benin had a bed net to sleep
under. Immediately following the campaign, NMCP discontinued routine net distribution to
pregnant women and children because it considered everyone to be covered. At the time of the
audit, NMCP had not yet notified health centers to resume routine distribution of nets, yet
USAID had delivered 705,000 nets—worth $4.1 million—to 800 health centers across the
country, where they had been sitting in storage for nearly 8 months. About 18,680 of them were
in the 5 health centers the team visited in Cotonou and Parakou. At Sikecodji Health Center in
Cotonou, the director said she did not understand why the mission continued to deliver bed nets
if she and her staff could not distribute them to beneficiaries.

4
 “Audit of USAID/Benin’s Implementation of the President’s Malaria Initiative,” Report No. 7-680-11-004-
P, February 14, 2011.


                                                                                                      7
Stock Cards. In some cases, stock cards were inaccurate. For example, Kpebie Health
Center understated its total inventory by 1,250 bed nets because employees there did not know
that the nets instead went to a health zone depot; the deliverer took the nets to the depot
because he knew Kpebie did not have sufficient storage space, but he did inform the staff about
the change in plans.

Sirarou Health Center did not record two deliveries of 1,550 nets on its stock card properly.
Lastly, Cotonou 1 Health Center did not maintain a stock card and could provide supporting
documentation for only 3,000 of the approximately 7,250 nets in storage.

Waste Management. The bags in which the bed nets were packed were not disposed of
promptly; in fact, NMCP’s last organized disposal was in 2007. During the 2011 campaign,
4.5 million nets from various donors were distributed across the country—including 200,000
from USAID—but the bags were never collected for disposal. Bags from the routine distribution
to pregnant women and infants, an activity solely supported by USAID, were also seen at health
centers awaiting proper disposal. Though NMCP has a waste management plan for the bags,
officials said they didn’t have funds for this activity. Until this problem is addressed, bags are
collecting at health centers and could pose health and environmental risks.




    Empty bed net bags pile up at the Tchatchou Health Center in the Department of Borgou.
    (Photo by OIG, May 15, 2012)

All of these conditions existed because USAID/Benin and NMCP did not monitor PMI activities
adequately. In response to the February 2011 audit—which also discovered that nets were
missing, diverted, or sold for profit—the mission was supposed to improve its monitoring and
perform quarterly site visits. The former commodities logistics specialist reportedly visited the
sites to monitor the project, but the mission could not provide documentation of these visits.




                                                                                                8
Without adequate monitoring, nets and antimalarial drugs may be handled or stored improperly
and be stolen or misused, and communities may not be protected from the environmental and
health hazards of improper, untimely disposal. To correct these inventory control weaknesses
and lack of adequate monitoring, we make the following recommendations.

   Recommendation 3. We recommend that USAID/Benin, in collaboration with the
   National Malaria Control Program, implement procedures to improve the monitoring of
   antimalarial drugs and nets.

   Recommendation 4. We recommend that USAID/Benin, in collaboration with the
   National Malaria Control Program and other donors, identify ways or provide means for
   disposing of bed net bags safely and promptly from past, present, and future
   distributions and document the results.

Project Encountered
Implementation Problems
Per ADS 202.3.6, monitoring the quality and timeliness of outputs, which are usually described
in contract statements of work and grant agreement program descriptions, is the responsibility
of CORs and development objective teams. ADS further states that outputs are critical to
achieving results, and delays in completing outputs or problems with output quality provide an
early warning that results may not be achieved as planned; therefore, responding to the
problems early is essential in managing for results. According to ADS 202.3.5, it is important to
confirm that implementing partners have complete information about the development
objectives their activities are expected to contribute to; the guidance also states that briefing
new partners about what’s expected of them may also be helpful. In addition, USAID strongly
encourages development objective teams to share their planning documentation with partners
within the guidelines and restrictions established.

However, we noted the following problems:

Activities Either Started Late or Not at All. Eight months after PMI activities began, the
mission had not yet approved the ARM3 project’s first-year work plan. According to the chief of
party, the plan was submitted to the COR for approval in January 2012. The COR asked for
clarification on some tasks outlined in the work plan before approving it. The chief of party said
he had not been able to respond, however, and so he had not sent the updated work plan to the
COR for final approval.

Assuming that the version of the work plan the mission provided to the audit team is approved,
then many activities either never started or were late. For example, only 39 percent of
127 planned activities were completed. The other 61 percent either never started or were late.

There were also delays in hiring personnel. All key project personnel (including a monitoring
and evaluation specialist, a finance and administration specialist, and a case management
officer) were expected to be in place between November and December 2011. However, they
did not assume their posts until mid-January 2012, 3 months after the project started.
According to ARM3 officials, the delay happened because consortium partners (MSH, Johns
Hopkins University Center for Communication Programs, and Africare) were unwilling to bring
on new staff from their respective organizations because USAID had only obligated $2.9 million
of the $6 million needed to run the project for the first year and because of local employment


                                                                                                9
laws. According to MCDI officials, these laws would make the partners liable for the entire
amount promised in an employee’s fixed-term contract if the contract were terminated early.

The officials said they told the COR and USAID/Benin’s contracting officer about this problem
several times, but there was little assistance from USAID in resolving this matter in a timely
manner until mid-February 2012 when additional funding was made available to cover costs for
the first year.

Mission Did Not Communicate Expectations With Partners. ARM3 is supposed to be a
follow-on for several USAID/Benin PMI programs that are coming to an end, including BASICS
and a component of the Integrated Family Health Program (PISAF) implemented by University
Research Co., LLC (URC). According to the mission, ARM3 implementers should have met
with PISAF and BASICS to learn about their activities and develop a strategy for taking them
over. However, we found that insufficient collaboration and confusion might prevent ARM3 from
being a true follow-on to the other projects.

ARM3 is expected to take over BASICS when the Agency’s agreement with MSH ends in
July 2012. However, during our meeting with ARM3 officials, they said this task is not in their
current agreement with USAID, and a modification of the agreement and scope of work would
be necessary if they are to take over BASICS. No plans were under way to confirm that ARM3
will take the program over without interruption to beneficiaries.

The chief of party for BASICS told the audit team he was surprised that he had not been
contacted by MCDI or USAID/Benin about transferring the program to MCDI or to discuss the
design of the follow-on. He added that it would be a shame if services were interrupted during
this transition period because many communities have come to depend on BASICS for their
health needs. Many of the community health workers and villagers visited echoed this
sentiment. They knew BASICS was ending but had not been told whether the project would
continue. They pleaded that the services provided by BASICS not be interrupted. BASIC’s
subpartners, which would be responsible for mobilizing the more than 1,000 community health
workers for a follow-on, have also been left in the dark.

USAID also expects ARM3 to take over components of URC’s PISAF, but ARM3 has had
difficulty implementing one of the activities. Under PISAF, URC developed software to monitor
inventory and drug consumption levels at the regional depots, and NMCP used this information
to do country-level quantifications and forecasting. ARM3 officials want to upgrade the software
to address a previous audit recommendation that the mission develop standards for the proper
storage and management of drugs. The officials also want to avoid introducing new software
that is not compatible with the programs the depots use. Upgrading the software requires URC,
NMCP, and ARM3 to collaborate, but they had not worked together enough to make progress.

These problems described above occurred because USAID/Benin has not worked intensively
with MCDI and partners from the other projects to ensure that there is adequate collaboration.
USAID has also not defined ARM3’s scope of work to include activities under the BASICS
program. There has been limited oversight by USAID to ensure that activities are being
implemented in a timely manner and that follow-on projects are transitioned seamlessly.
Although the ARM3 project staff members said they have met with the COR several times, the
mission was unable to provide us with any site visit reports documenting these meetings.5


5
    This problem concerning the lack of monitoring is addressed in Recommendation 3.


                                                                                             10
As a result of the problems documented above, there has been limited encouragement for
collaboration among partners to transfer information, lessons learned, and best practices in an
effort to make sure that services to beneficiaries are not interrupted and activities are
implemented on time. To correct these problems, we make the following recommendations.

   Recommendation 5. We recommend that USAID/Benin work with Medical Care
   Development International to revise its agreement and work plan, adjust its targets,
   adjust its budget, and incorporate follow-on projects into its scope of work to reflect the
   late start and the current circumstances.

   Recommendation 6. We recommend that USAID/Benin work with Medical Care
   Development International and require that it collaborate with the National Malaria
   Control Program and partners from previous projects to confirm that there is no break in
   follow-on services and document their actions.




                                                                                                 11
OTHER MATTER 

Government Malaria Treatment
Policy Was Not Effective
During the audit, this matter came to our attention that could have a negative impact on the
program’s sustainability. In October 2011 the Government of Benin instituted a new policy that
requires health centers to provide free antimalarial drugs to pregnant women and children
under 5 who test positive for malaria. This policy, however, is having an adverse effect on
health centers across the country. Before it went into effect, health centers sold antimalarial
drugs at a subsidized rate and used the proceeds from the sales to replenish their stock through
the Central or Regional Medical Stores. However, because the centers are now giving the
drugs away, they have less money to replenish stock. The government was supposed to
reimburse the centers for the free drugs, but at the time of this audit—7 months after the policy
took effect—it had not done so.

Without reimbursement, some centers have had to reduce the quantity of antimalarial drugs
purchased or choose between replenishing antimalarial drugs and other essential medicines
because they did not have enough funds to meet all their needs. Nurses at three health centers
visited said they expected to receive between $400 and $600 from the government for
expenses incurred since the free drug policy was instituted, but they have not. At the Ouenou
Health Center outside Parakou, the nurse said that because he did not have enough money to
replenish both antibiotics and antimalarial drugs, he used the money for antimalarial drugs and
referred patients who needed antibiotics to a pharmacy about 15 kilometers away.

According to the manager of the Regional Medical Store in Parakou, the delay in reimbursement
has forced some health centers with good credit to buy other medicines on credit from the
regional health zone depots, which then have to buy on credit from the medical stores.

The government’s free drug policy has created administrative burdens also. To be reimbursed,
employees at the centers must submit detailed information about each patient treated under the
program, and this was a time-consuming process.

According to USAID/Benin, the government had not been able to reimburse health centers
because it was still putting a system in place to verify that only expenses for legitimate malaria
cases qualified for reimbursement. The mission was aware of the possible adverse effects of
this policy before it took effect and advised government officials to first study its implications, but
the government did not. Failure to address the reimbursement problem will hinder PMI goals
and jeopardize the program’s sustainability. Accordingly, we make the following
recommendation.

   Recommendation 7. We recommend that USAID/Benin support an evaluation of the
   Government of Benin’s policy for the free treatment of malaria and make
   recommendations in writing to the Government to make these services sustainable.




                                                                                                    12
EVALUATION OF MANAGEMENT
COMMENTS
USAID agreed with six of seven recommendations in the draft report. Final action has been
taken on Recommendations 2, 5, and 6, and management decisions have been reached on
Recommendations 3, 4, and 7. Recommendation 1 remains without a management decision.
Our evaluation of management comments is shown below.

Recommendation 1. The mission agreed to implement a distribution plan for the limited supply
of tests. As part of its work plan, MCDI will work to improve malaria diagnosis and treatment
activities by developing a plan to improve access to tests in support of the national policy
requiring testing prior to treatment.

The mission disagreed with the part of the recommendation that “requires that community-level
case management programs are provided with sufficient amounts of rapid diagnostic tests to
meet their needs in diagnosing and treating malaria.” In its response, the mission statedt that
PMI Washington recommends that the use of tests be prioritized according to individual country
policy.

In our view, this statement supports RIG/Dakar’s position that community-level case
management programs be provided with sufficient amounts of tests because the Government of
Benin adopted this policy in February 2011, and anyone suspected of having malaria must now
be tested before receiving treatment. Because the mission disagreed, there is no management
decision on this recommendation.

Recommendation 2. The mission agreed to develop a monitoring plan that requires quarterly
site visits to each implementing partner. Additionally, the mission’s newly appointed CDC
resident adviser has incorporated the use of data quality assessments into future site visits.
These actions constitute final action on this recommendation.

Recommendation 3. The mission agreed to implement procedures, in collaboration with the
NMCP, to improve the monitoring of antimalarial drugs and bed nets. A new commodities and
logistics manager has joined the health team since the audit, and he will coordinate site visits
with NMCP and the Central Medical Stores. Additionally, MCDI plans to develop a detailed plan
for the monitoring of PMI commodities in Benin. The mission plans to complete these actions
by March 31, 2012. Accordingly, a management decision has been reached on this
recommendation.

Recommendation 4. The mission agreed that the donor community should identify ways to
dispose of bed net bags properly. The mission highlighted the fact that USAID is only a minor
supplier of bed nets in Benin and cannot control the practices of other donors. The current
NMCP coordinator has assured the mission that future bed net distribution campaigns would
use incinerators to dispose of the bags.

The mission intends to raise the impact of bed net bags on the environment at the next meeting
of stakeholders and will also consult with the regional environmental officer in Accra about any
additional steps PMI can take to further reduce the problem of undisposed bed net bags in



                                                                                             13
Benin. The mission plans to conclude these action steps by March 31, 2013. Accordingly, a
management decision has been reached on this recommendation.

Recommendation 5. The mission agreed and has updated MCDI’s work plan, adjusted its
targets and budgets, and incorporated follow-on projects into its scope of work. These actions
constitute final action on this recommendation.

Recommendation 6. The mission agreed with this recommendation and has adjusted the year
two work plan of MDCI to incorporate tasks that ensure a smooth transitioning of projects to
MCDI and one that ensures that there are no gaps in services. These actions constitute final
action on this recommendation.

Recommendation 7. The mission agreed to provide assistance to the Ministry of Health
through workshops and in writing to determine how the free treatment of Malaria can be made
more sustainable by March 31, 2013. Accordingly, a management decision has been reached
on this recommendation.

Last, regarding the mission’s comments on the BASICS program implemented by MSH,
RIG/Dakar disagrees with the mission and concurs with MSH that this program was expected to
be fully implemented and functioning at the time the audit was performed. The implementer
unsuccessfully tried to negotiate with the government for enough tests to cover its entire
population of beneficiaries. According to Beninese officials we spoke with, the program was not
in compliance with the Government’s instituted policy on the diagnosis and treatment of malaria
because malaria was not always confirmed through approved tests prior to treatment. Although
the program was initially launched as a pilot, it was expected to be fully implemented and in full
compliance with WHO and Beninese Government policies by the time of this audit.




                                                                                               14
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Benin’s malaria program has
achieved its goals of preventing and treating malaria. To implement the program, the mission
worked with about eight prime partners. Those selected for audit are listed in Table 1 on page 1.

The audit focused on malaria-related activities occurring in fiscal years 2011 and 2012. During
FY 2011, USAID/Benin obligated $19.4 million and disbursed $18.9 million for PMI activities.
During FY 2012, as of July 11, USAID/Benin obligated $7.9 million and disbursed $7.6 million.
Of those disbursements, the amount tested was $7.5 million for FY 2011 and $3.9 million for FY
2012.

In planning and performing the audit, the audit team assessed relevant controls the mission
used to manage the program and confirm that its implementing partners were providing
adequate oversight of program activities. We reviewed the following:

   Project work plans
   Project agreements and subagreements
   Partners’ progress reports
   Performance monitoring plans
   Available USAID and partner trip reports
   Policies and procedures to safeguard program assets and resources
   FY 2011 certification required under the Federal Managers’ Financial Integrity Act of 1982
   Recommendations from a previous audit of USAID/Benin’s PMI activities

We conducted audit fieldwork from May 7 to May 25, 2012. We interviewed key mission
personnel, implementing partner and subpartner staff members, Ministry of Health employees,
and community health workers. We conducted the audit at USAID/Benin in Cotonou and at
implementing partner and subpartner offices and activity sites in the Borgou, Donga, and Littoral
Departments. Under MSH’s BASICS, we met with two local subpartners GRADE and DEDRAS.
Under DELIVER, we met with United Parcel Service regarding bed net distribution. To assess
the adequacy of inventory controls for bed nets and antimalarial drugs, we visited six health
centers, two medical stores, and one regional depot.

We only verified reported results for MSH’s BASICS malaria activities because the ARM3
project was in its early stages of implementation and the mission could not provide all the
necessary documentation for DELIVER. Complete assessments of DELIVER and the bed net
and antimalarial drug component of USAID/Benin’s malaria program were not possible because
key personnel were absent, conflicting information was provided to auditors, and not all
documentation was available for review.



                                                                                                 15
                                                                                      Appendix I


Methodology
To answer the audit objective, we evaluated the mission’s management and oversight of PMI
activities, the performance of implementing partners, and the effectiveness of the activities
being implemented. We met with the PMI team in Benin to gain an understanding of the
program activities. We selected three projects to audit and reviewed available agreements and
subagreements, progress reports, performance management plans, work plans, site visit
reports, and annual certification required by the Federal Managers’ Financial Integrity Act. We
reviewed applicable laws and regulations, ADS policies and procedures pertaining to
USAID/Benin’s PMI program, guidance from WHO, and the Government Accountability Office’s
Standards for Internal Control in the Federal Government.

We performed site visits in the Borgou, Donga, and Littoral Departments. During these visits,
we interviewed staff members from implementing partners, health services, and medical stores,
as well as community health workers and Ministry of Health officials. We also verified reported
results (when possible), counted antimalarial drug and net commodities, and checked to see
whether activities were being implemented and were monitored and evaluated as required. In
selecting a sample of activities to visit, we chose activities that were in progress during our
fieldwork, located in areas where other key program activities were being implemented, and
representative of the mission’s antimalarial efforts. The results and overall conclusions related
to this testing were limited to the items tested and cannot be projected to the entire audit
universe. However, we believe that our work provides a reasonable basis for our conclusions.




                                                                                              16
                                                                                     Appendix II



MANAGEMENT COMMENTS 




To:           Gerard Custer, Regional Inspector General, Dakar, Senegal

From:         /s/ Kevin Armstrong, Mission Director, USAID/Benin

Date:         October 15, 2012

Subject:      Audit of USAID/Benin’s Implementation of the President’s Malaria Initiative (Audit
Report No. 7-680-12-00X-P) – June 2012

______________________________________________________________________


This memorandum transmits USAID/Benin’s management response on the subject audit report
regarding USAID/Benin’s malaria activities funded by the President’s Malaria Initiative (PMI).
We believe that the Government of Benin, through the National Malaria Control Program
(NMCP) and its malaria control partners, has made significant progress toward reducing the
malaria burden in Benin. Together, we have increased access to life-saving malaria drugs to
hundreds of thousands of children and pregnant mothers: in the national campaign last year we
distributed bed nets to millions of households; PMI has conducted indoor residual spraying to
protect more than half a million people in the Atacora department; and we have been building
Beninese capacity to manage and sustain activities in a transparent manner. The preliminary
data from the Demographic and Health Survey that was just completed provide evidence that
remarkable progress has been achieved in reducing malaria in Benin over the past few years.
However we acknowledge there are significant challenges in implementing this type of program
and will continue to work on improving the malaria information system, and the management of
the supply chain of malaria drugs, commodities and other resources. USAID/Benin remains
committed to achieving a quality program that saves lives and provides superior services. We
appreciate the RIG’s inputs towards the improvement of the implementation of PMI by
USAID/Benin.

Our management responses to the recommendations are presented below:

Recommendation 1. We recommend that USAID/Benin, in coordination with the
Ministry of Health, develop and implement a distribution plan for the limited supply of
Rapid Diagnostic Tests (RDT) that requires that community-level case management
programs are provided with sufficient amounts of rapid diagnostic tests to meet their


                                                                                             17
                                                                                      Appendix II


needs in diagnosing and treating malaria.

Management Comments: USAID/ Benin agrees with the first part of the recommendation
and will develop and implement a distribution plan for the limited supply of RDTs. One of the
priority tasks in Medical Care Development International’s (MCDI) work plan is to improve
malaria diagnosis and treatment activities. Part of this task is to develop a plan to improve
access to RDTs in support of the policy of the Ministry of Health (MOH) requiring testing of all
patients suspected of having malaria before any treatment is started. This plan will include
expanding the training of community health workers (CHWs) in the use of RDTs to the extent
RDTs can be made available.

The target closure date for this recommendation is December 31, 2012.

However, the Mission disagrees with the part that “requires that community-level case
management programs are provided with sufficient amounts of rapid diagnostic tests to meet
their needs in diagnosing and treating malaria.” PMI Washington recommends that the use of
limited RDTs be prioritized according to individual country policy. From the time the testing
policy was adopted by the MOH in February 2011 to the present, the demand for RDTs has
risen dramatically. There is now an acute shortage of RDTs, with just 600,000 (all from PMI
this year) compared to the total need of more than three million. In light of this shortage, the
MOH has determined that the most effective use of the limited supply of RDTs is to allocate
them to health facilities that see large numbers of sick children and where there are sufficient
numbers of experienced professionals who can properly administer the RDTs. Meanwhile,
microscopy will continue to be used as an alternative means of diagnosing malaria until
sufficient RDTs are available to cover needs nationwide.

The long term solution to the shortage is an expansion of the supply of RDTs but this may be
difficult to achieve. PMI and the Global Fund are currently the only major donors funding
RDTs in Benin and PMI’s budget for FY 2013 has been reduced by $2 million while the Global
Fund will not have money to buy RDTs until 2014. The current country proposal to the Global
Fund proposes to fund 750,000 RDT kits. To improve their availability, the Mission intends to
request PMI/Washington to approve a re-programming of funds to increase the budget
allocated for the purchase of RDTs for Benin.

Recommendation 2. We recommend that USAID/Benin implement a monitoring plan for its
President’s Malaria Initiative program that includes frequent site visits and data quality reviews
which are documented.

Management Comments: USAID/Benin agrees with the recommendation and has developed
a monitoring plan which requires a minimum of quarterly site visits to each implementing
partner. The newly-appointed CDC Resident Advisor has begun site visits to perform data
quality assessments; he will move to Benin in January 2013 for an initial two-year assignment.

The Mission wishes to comment that during the period covered by the audit, the Commodities
and Logistics Specialist conducted four visits to health facilities and sales points but his site
visit reports could not be located after he left USAID. In addition, site visits to the north of
Benin normally take a full week, and maintaining a quarterly schedule of site visits was not
possible because of extended periods of time when the Center for Disease Control Resident
Advisor, the Program Manager and the Commodities and Logistics Specialist positions were



                                                                                               18
                                                                                    Appendix II


vacant due to staff turnover.

We have attached the schedule of site visits for FY 2013, and will forward the trip reports
quarterly, if needed. We request closure of this recommendation on issuance of this report.

Recommendation 3. We recommend that USAID/Benin, in collaboration with the National
Malaria Control Program, implement procedures to improve monitoring of antimalarial drugs and
nets.

Management Comments: USAID/Benin agrees with the recommendation and will implement
procedures, in collaboration with the National Malaria Control Program, to improve the
monitoring of antimalarial drugs and nets. A new Commodities and Logistics Specialist has
recently joined USAID/Benin’s Family Health Team (FHT). He will soon start doing site visits in
coordination with the National Malaria Control Program (NMCP) and the Central Medical
Stores (CAME). In addition, MCDI will develop a detailed plan with specific procedures to
monitor the availability and use of PMI commodities.

The target closure date for this recommendation is March 31, 2013.

Recommendation 4. We recommend that USAID/Benin work with the National Malaria Control
Program and other donors to identify ways or provide means for the proper and timely disposal
of bed net bags from past, present and future distributions and document the results.

Management Comments: USAID/Benin agrees with the recommendation that the donor
community should identify ways to properly dispose bed net bags shortly after mass
distributions because of the potential environmental damage caused by thousands of improperly
disposed bed net bags. USAID is only a minor supplier of bed nets in Benin and cannot control
the practices of other donors. For example, during the universal distribution campaign in July-
August 2011, less than 5% of an estimated 4.5 million bed nets were financed through PMI.
Thus, most bed net waste comes from other donors, including the large quantity of bed net bags
featured in one of the photographs included in the draft PMI Audit Report, which were left over
from an activity implemented by donors other than PMI. PMI-financed net distribution during
this campaign was accompanied by a social mobilization campaign that included messages on
the proper use of mosquito nets and the disposal of bed net bags.

Nonetheless, USAID/Benin has often raised the importance of proper bed net bag disposal with
the three NMCP coordinators who occupied the position the last three years. The current
coordinator has assured USAID/Benin that future campaigns will utilize already purchased
incinerators for the disposal of bed net bags. In addition, the next bed net mass campaign will
adopt more environmentally friendly packaging so that bed nets are no longer individually
packaged but are packaged in large numbers, thereby reducing waste.

USAID/Benin will once more raise the environmental issue at the next meeting of Benin’s Roll
Back Malaria Partnership and will consult with the Regional Environmental Officer in Accra on
any additional steps that can be taken by PMI to further reduce the problem of undisposed bed
net bags.

The commitments of the NMCP and Benin’s malaria donors on the proper disposal of bed net
bags will be summarized and submitted to close the recommendation.



                                                                                             19
                                                                                    Appendix II


The target closure date for this recommendation is March 31, 2013.

Recommendation 5. We recommend that USAID/Benin work with Medical Care Development
International to revise its agreement and work plan, adjust its targets, adjust its budget, and
incorporate follow-on projects into its Scope of Work to reflect the late start and the current
circumstances.

Management Comments: USAID/Benin agrees with the recommendation and has updated
MCDI’s work plan, adjusted its targets and budgets, and incorporated follow-on projects into its
Scope of Work. The approved work plans for FY 2011 and 2012 are attached.

The Mission requests closure of this recommendation upon issuance of the audit report.

Recommendation 6. We recommend that USAID/Benin work with Medical Care Development
International to ensure that there is a coordinated and harmonized effort between Medical
Care Development International, the National Malaria Control Program and the partners from
previous projects to make sure that there is no gap in follow-on services.

Management Comments: USAID/Benin agrees with the recommendation to the extent that
there is a need to continue activities of previous projects into ARM3. MCDI’s work plan for Year
2 is attached. It has been adjusted to incorporate tasks to ensure a smooth transition from the
Strengthening Pharmaceutical Services, Improving Malaria Diagnostics, Treatment of Severe
Malaria in Children, Malaria in Pregnancy and Community Case Management into ARM3. The
Year 2 work plan is attached and represents the results of close consultations with the NMCP.

The Mission requests closure of this recommendation upon issuance of the audit report.

Recommendation 7. We recommend that USAID/Benin support an evaluation of the
Government of Benin’s policy of free treatment of malaria and make recommendations in
writing to the Government of Benin to make these services more sustainable.

Management Comments: USAID/Benin agrees with the recommendation and will provide
assistance to the Ministry of Health, through workshops and in writing, to determine how the
free treatment of malaria can be made more sustainable. Those recommendations will be
through workshops and in writing.

The monitoring of the free malaria treatment policy is already on the agenda of the Minister of
Health and she recently took a week-long tour of northern Benin to observe first-hand how the
new policy is being implemented. USAID/Benin will formally offer its support to the Minister to
conduct an analysis of this new policy. In addition, PMI has included in the fiscal year 2012
Malaria Operating Plan funds to hold a workshop to assess progress in its implementation.

It is important to note that USAID/Benin has little control over or involvement in the
implementation of the policy. This policy was an Executive Order from the President of
Benin. We appreciate the importance of ownership by the Government of Benin of both the
problems and the possible solutions and will assist where possible.

The target closure date of this recommendation is March 31, 2013.




                                                                                             20
                                                                                    Appendix II


Finally, the Mission wishes to comment on the auditors’ observation that the implementing
partner for the Integrated Community Case Management (iCCM) Project “did not follow
guidelines for diagnosing malaria.” When the project started in 2009, the national policy did
not include the training of CHWs on RDT use. The MOH’s RDT policy was adopted in 2011,
but it took several months for the training to reach the community level. Hospital and health
center workers needed to be trained first because it was planned that they would be the ones
to eventually train and supervise the CHWs.

When the CHWs’ RDT training begun by USAID’s iCCM Project in January 2012, the activity
was meant to be an initial pilot intended to generate a model that could be used to scale-up
RDT use. It was not designed to train all CHWs on RDTs because there was, and continues
to be, no assurance that sufficient amounts of RDTs would be available once the CHWs were
trained. The pilot was valuable in highlighting the problems of insufficient supply of RDTs,
both for training and for actual diagnosis. The caution exercised by both the project and the
MOH in not rapidly expanding the use of RDTs by CHWs was appropriate in that there was a
need to ensure that RDT performance is accurate in a cadre of health workers with primary
education or less and no prior experience in diagnostic testing. This programmatic issue
needed to be addressed before moving to a national scale-up of RDTs among CHWs.

Thank you for your efforts in helping improve the management of US Government resources
used by the PMI program in Benin.

Attachments:
    1. Recommendation 2 - Family Health Team Schedule of Site Visits FY 2012
    2. Recommendation 5 - ARM3 Work Plan FY 2011 and ARM3 Work Plan FY 2012
    3. Recommendation 6 - ARM3 Work Plan FY 2012




                                                                                                21
                                                                     Appendix III


                            Table 3. Mission FY 2011 Results

       Indicator            2011 Target          2011 Result   Difference (%)
Number of artemisinin-
based combination
treatments (ACTs)
                             350,000               556,497          159
purchased and
distributed through
USG-support*
Number of houses
sprayed with IRS with        160,000               145,247          91
USG support
Number of
improvements to laws,
policies, regulations, or
guidelines related to
                                2                     3             150

improve access to and
use of health services
drafted with USG
support
Number of insecticide-
treated nets distributed     1,087,982            1,081,549         99
or sold with USG funds
Number of insecticide-
treated nets purchased       1,040,000             905,000          87
with USG funds
Number of people
covered by USG-
                              13,000                36,700          282
supported health-
financing arrangements
Number of people
trained with USG funds
                               1,526                2,073           136
in malaria treatment or
prevention
Number of RDTs
purchased or distributed     937,500               600,000          64
through USG support
Number of USG-
assisted service delivery
points implementing
                               164                   163            99
quality
assurance/improvement
approaches in malaria
* U.S. Government.




                                                                                22
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
